                                   NATIONAL SCIENCE FOUNDATION
                                    OFFICE OF INSPECTOR GENERAL
                                      OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM

                                                                         Date: 05 March 2002




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have corrected time and attendance errors.

Accordingly this case is closed.
